Department of Health and Human Services

        OFFICE OF

    NSPECTOR GENERAL





    MARKETING OF ORTHOTIC
        BODY JACKETS




         MANAGEMENT ADVISORY REPORT




          MARCH   1994   OEI-O4-92-O1O81

Department of Health and Human Services

        OFFICE OF
    NSPECTOR GENERAL




    MARKETING OF ORTHOTIC
        BODY JACKETS




          MANAGEMENT ADVISORY REPORT




                  MARCH   1994
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Offke of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

Atkmta Region                                                Headquarters

Jacqueline Andrews, Project Leader                           Tom Noplock

Betty Apt, Team Leader                                       Barbara Tedesco

Peggy Daniel

Joe Townsel


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-5022.

              EXECUTIVE                         SUMMARY


PURPOSE

To describe marketing practices of orthotic body jacket suppliers.

BACKGROUND

In 1993, the Office of Inspector General (OIG) conducted an inspection to determine
whether or not Medicare was appropriately billed for orthotic body jackets. We found
that

  �	
       Medicare claims and allowed charges for orthotic body jackets have increased
       substantially since 1990, and

  �	
       95 percent of the orthotic body jacket claims paid by Medicare in 1991 under
       code L0430 were for non-legitimate devices. They did not meet the
       construction requirements and medical purpose of legitimate body jackets.

While conducting the inspection, we found that many suppliers had questionable
marketing practices and billed Medicare for non-legitimate devices.

FINDINGS

SupplikIX,Rather ?7um Physkians, Initiated Orders for Non-Le@imate    Body Jackets

Licensed orthotists told us physicians should refer patients needing orthotic body

jackets to orthotic suppliers. The orthotists said suppliers should not independently

market devices to patients themselves. The suppliers of orthotic body jackets should

have licensed orthotists trained to take patients’ measurements and custom-fit devices.


The non-legitimate devices we found in our sample were marketed by Durable

Medical Equipment (DME) salespersons before prescriptions or Certificates of

Medical Necessity (CMNS) were written by physicians. Typically, DME salespersons

marketed their devices for use by nursing home residents. Salespersons presented

their products to nursing home directors and physical therapists as restraint

alternatives to help patients sit upright in wheelchairs. When a patient agreed to

purchase a device, salesmen either completed a CMN or prescription, or gave nursing

home staff wording to use and they completed the CMN. The nursing home staff then

sent the CMN to a physician for signature. Either the DME salesperson or the

nursing home physical therapist, not a trained orthotist, made any adjustments to the

device.





                                            i
Physic&ms Roviiez.i   No Control for I%venting Sales of Non-Legitimate   Devices

Most physicians of beneficiaries in our sample with non-legitimate devices were not
aware of what they had signed a prescription or CMN for. They simply signed
prescriptions or CMNS that had been completed either by suppliers or nursing home
staff using suppliers’ wording. Twenty-two of 38 physicians who had signed CMNS for
non-legitimate devices had never seen the devices. Eleven of the 22 had no record of
prescribing any type of device. Most physicians who had seen devices did not realize
suppliers had billed Medicare for more sophisticated devices. They assumed suppliers
had billed for cushioned wheelchair seating supports rather than custom-fit orthotic
body jackets.

CMNS Did Not Assure Mdical       Necessity

CMNS were signed by physicians even though patient diagnoses and conditions listed
on CMNS did not support the need for orthotic body jackets.

Licensed orthotists told us legitimate orthotic body jackets are commonly used to treat
injuries to the spine such as vertebra fractures and compression, and to facilitate
healing following a surgical procedure on the spine or related tissues.

None of the diagnoses listed on CMNS for non-legitimate devices indicated spinal
injuries or surgical procedures. The diagnoses suggested that the patients could have
problems sitting upright in wheelchairs, but most conditions were associated with
advanced age rather than spinal injuries. Frequently mentioned conditions were
dementia, osteoarthritis, Alzheimer’s and Parkinson’s.

CONCLUSION

To market a non-legitimate device as an orthotic body jacket, DME suppliers took
advantage of (1) nursing homes’ desires for restraint alternatives, (2) nursing home
patients with both Medicare and Medicaid not having to pay for the products, and (3)
physicians’ laxity in attention to CMNS they signed. The extent of this practice raises
serious questions about the value of CMNS and marketing in nursing homes (95
percent of our sample were non-legitimate devices).

OIG has inspections planned that will study this issue in detail. The inspections will
look at (1) the usefulness of CMNS, (2) the appropriateness of payments for
equipment, supplies, and professional services provided to beneficiaries in nursing
homes, and (3) the role of physicians in controlling patients’ medical care.

In the meantime, we suggest that HCFA continue to alert their regional fraud and
abuse coordinators and contractors to potential abuse in this area, and advise
contractors to exercise diligence in reviewing claims for orthotic body jackets.




                                             ii
                       TABLE                    OF CONTENTS


                                                                                                                  PAGE

EXECUTIVE         SUMMARY


INTRODUCTION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

   Suppliers Initiated Orders for Non-Legitimate

   Body Jackets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


   Physicians Provided No Control in Preventing

   Sales of Non-I@timateD evices    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


  CMNs Did Not Assure Medical Necessity . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4



CONCLUSION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                          INTRODUCTION


PURPOSE

To describe marketing practices of orthotic body jacket suppliers.

BACKGROUND

In 1993, the Office of Inspector General (OIG) conducted an inspectionto determine
whether or not Medicare was appropriately billed for orthotic body jackets.1 The
inspection was conducted in response to an allegation from a company which provides
Medicare billing services to nursing homes. The allegation was that suppliers were
billing Medicare approximately $1,200 per claim for devices consisting of “nothing
more than a $50 piece of foam rubber.” The bills were submitted to Medicare with a
code used for devices described by the Health Care Financing Administration (HCFA)
as a ‘Thoracic Lumbar Sacral Orthosis (TLSO), Anterior-Posterior-Lateral    Control
(Body Jacket) with interface material custom fitted.”

The OIG inspection found that

  �	
       Medicare claims and allowed charges for orthotic body jackets have increased
       substantially since 1990, and

  �	
       95 percent of the orthotic body jacket claims paid by Medicare in 1991 under
       code L0430 were for non-legitimate devices. They did not meet the
       construction requirements and medical purpose of legitimate body jackets.

While conducting the study, we found that many suppliers used questionable
marketing practices and billed Medicare for non-legitimate detices. Their practices
differed from marketing practices of suppliers of legitimate devices. We describe
those differences in this Management Advisory Report.

SCOPE

We focused this inspection on marketing practices for devices sold under code L0430
of the HCFA Common Procedure Coding System. Our analysis of 1991 data for all
body jacket codes showed that code L0430 had the most significant increase in number
of claims. We conducted our inspection between May and October, 1993.




   ~Officeof Inspector General, United States Departmentof Health and Human Sewices,Medicare
Paymentsfor Orthotic BodyJackets. OEI-O4-92-O1O8O.


                                              1
METHODOLOGY


We reviewed a one percent random sample of all Medicare paid claims for code

L0430 shown in HCFA’S 1991 Common Working File. Our sample comprised 95

claims.


To determine marketing practices of the suppliers who sold devices to beneficiaries   in

our sample, we interviewed 46 nursing home administrators. Forty-four of our

intemiews were by telephone. We also reviewed marketing brochures for all 21

suppliers who had claims appearing in our sample.


To determine how suppliers of legitimate body jackets marketed their devices, we

consulted five licensed orthotists, three of whom were members of the American

Orthotic and Prosthetic Association (AOPA).


To determine physicians’ awareness of what they had prescribed, we sent

questionnaires to the 55 physicians in our sample for whom we had addresses.

Medicare requires that body jackets be prescribed by physicians. We got physicians’

addresses from Certificates of Medical Necessity (CMNS) that suppliers submitted with

their claims. Sixty-four of the claims in our sample were accompanied by CMNS, and

55 of those CMNS listed the physician’s address. Forty of the 55 (73 percent)

responded to our suwey.


This inspection was conducted in accordance with the Quality Standards for Inspections

issued by the President’s Council on Integrity and Efficiency.





                                           2

                                 FINDINGS


Suppliers, Rather Than Physicians, Initiated Orders for Non-Legitimate Body Jackets

The licensed orthotists we interviewed said physicians of patients needing body jackets
should refer patients to orthotic suppliers. The orthotists said suppliers should not
independently market the devices to patients themselves. Medicare requires that
medical necessity exist in order for an orthotic device to be covered by Medicare. The
licensed orthotists told us physicians of patients with spinal problems should call
orthotic suppliers to order body jackets for their patients. Trained orthotists employed
by the suppliers then take patients’ measurements, order devices from manufacturers,
and custom-fit the devices to ensure they provide the support needed to stabilize the
spine.

Conversely, the non-legitimate devices we found in our sample were marketed by
Durable Medical Equipment (DME) salespersons before prescriptions or CMNS were
written by physicians. Typically, DME salespersons marketed their devices for use by
nursing home residents. Salespersons presented their products to nursing home
directors and physical therapists as restraint alternatives to help patients sit upright in
wheelchairs. When a patient agreed to purchase a device, the salesperson either
completed a CMN or prescription, or gave nursing home staff appropriate wording to
use and they completed the CMN form. The nursing home staff then sent the CMN
or prescription to a physician for signature. Either the DME salesperson or the
nursing home physical therapist, not a trained orthotist, made any adjustments to the
device.

This particular marketing strategy was effective because the 1990 Omnibus Budget
Reconciliation Act prohibited the use of physical restraints with nursing home patients,
and nursing home staff needed alternatives. Further, salespersons pointed out to the
nursing home staff and patients’ families that there is no expense to patients covered
by Medicaid. Medicare covered 80 percent of the cost and Medicaid the remaining 20
percent.

Physicians Provided No Control For Preventing Sales of Non-Legitimate Devices

Physicians provided no control for assuring the medical need and legitimacy of orthotic
body jackets. Most physicians of beneficiaries in our sample with non-legitimate
devices were not aware of what they signed a prescription, or CMN, for. They simply
signed prescriptions or CMNS that had been completed either by suppliers or nursing
home staff using suppliers’ wording. In many instances, physicians never saw the
products, and when they did, they did not realize suppliers had billed Medicare for
more sophisticated devices. They assumed suppliers had billed for cushioned
wheelchair seating supports rather than custom-fit orthotic body jackets.




                                              3

One physician we surveyed said he was “outraged by the commercialization of the
[non-legitimate] product.” He had a large nursing home practice, and in one nursing
home with approximately 60 patients, he had received 30 to 40 requests for such
products. According to the physician, “Salesmen go out and sell the nursing home
staff on the product and then believe the doctor will simply sign off.”

In our survey, we found that many physicians did simply sign off on suppliers’ orders,
and, typically, their patients received non-legitimate devices. Most of the CMNS
physicians signed either had the word orthotics or TLSO on the CMN. However,
many physicians expressed surprise when we told them Medicare had paid for an
orthotic body jacket.

      �	
           Of the 40 physicians who had signed CMNS and responded to our survey, 2 had
           patients with legitimate orthotic devices. Patients of the other 38 physicians
           received non-legitimate devices.

 �	
           Twenty-two of the 38 physicians who had signed CMNS for non-legitimate
           devices had never seen the devices they had prescribed.

      �	
           Eleven of the 22 who had not seen the devices had no record of prescribing
           any type of device. Two physicians said their patients would have had no need
           for devices because they were totally bedridden. All the CMNS had signatures,
           and we did not try to determine if the signatures were those of the physicians
           or had been forged.

      �	
           Of 16 physicians who had seen the devices, 13 described the devices their
           patients had as cushioned wheelchair supports, which according to the licensed
           orthotists we interviewed, are not legitimate orthotic body jackets. Yet, these
           devices were billed to Medicare as custom-fitted body jackets.

      �	
           Thirteen of the 16 physicians who had seen the devices said they thought the
           approximate $900 Medicare allowed for orthotic body jackets (under code
           L0430) was excessive for the cushioned wheelchair supports received by their
           patients. One physician said the device his patient had was “unsophisticated,
           [and] clearly inexpensive to produce.”


CMNs Did Not Assure Medical Necessity

CMNS provided no control for assuring medical need for orthotic body jackets. CMNS
were signed by physicians even though patient diagnoses and conditions listed on the
CMNS did not support the need for orthotic body jackets.

The licensed orthotists we interviewed told us legitimate orthotic body jackets are
commonly used to treat injuries to the spine such as vertebra fractures and
compressions, and to facilitate heaIing following a surgical procedure on the spine or


                                                4
related tissues. Diagnoses on the CMNS of the two patients with legitimate body
jackets were spinal stenosis (narrowing and constriction of diameter) and compression
fracture.

None of the diagnoses listed on the CMNS for non-legitimate devices indicated spinal
injuries or surgical procedures. The diagnoses suggested that the patients could have
had problems staying upright in wheelchairs, but most conditions were associated with
advanced age rather than spinal injuries.

Most CMNS listed more than one diagnosis for each patient. Frequently mentioned
conditions were dementia (18 patients), osteoarthritis (12 patients), Alzheimer’s and
Parkinson’s (five patients each). Over three-fourths of the CMNS (55 of 64) listed
“lumbar sacral dysfunction” as a primary or secondary diagnosis. None of these
conditions normally require an orthotic body jacket, according to the licensed
orthotists we interviewed. At least two of the CMNS stated that previous treatment
for the patients’ conditions had been restraints.

CONCLUSION

To market a non-legitimate device as an orthotic body jacket, DME suppliers took
advantage of (1) nursing homes’ desires for restraint alternatives, (2) nursing home
patients with both Medicare and Medicaid not having to pay for the products, and (3)
physicians’ laxity in attention to CMNS they signed. The extent of this practice raises
serious questions about the value of CMNS and marketing in nursing homes (95
percent of our sample were non-legitimate devices).

OIG has inspections planned that will study this issue in detail. The inspections will
look at (1) the usefulness of CMNS, (2) the appropriateness of payments for
equipment, supplies, and professional services provided to beneficiaries in nursing
homes, and (3) the role of physicians in controlling patients’ medical care.

In the meantime, we suggest that HCFA continue to alert their regional fraud and
abuse coordinators and contractors to potential abuse in this area, and advise
contractors to exercise diligence in reviewing claims for orthotic body jackets.




                                            5

